               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Limited Duty and Rehabilitation
         Employees Returned to Work

                       Audit Report




                                         September 12, 2013

Report Number HR-AR-13-006
                                                                       September 12, 2013

                                             Limited Duty and Rehabilitation Employees
                                                                      Returned to Work

                                                           Report Number HR-AR-13-006



BACKGROUND:
U.S. Postal Service employees injured           which is consistent with federal laws and
on the job are covered by the Federal           regulations. However, we noted officials
Employees Compensation Act, which is            did not perform the required periodic
administered by the U.S. Department of          reviews of 3 percent of case files we
Labor. The Postal Service manages               reviewed, and 6 percent of the files
efforts to return injured employees to          reviewed did not contain documentation
work through its Injury Compensation            indicating employees accepted modified
Program. As of December 2012, the               assignments. Management stated these
Postal Service had 16,999 employees             issues were due to increased workload
receiving workers’ compensation                 and decreased staffing.
benefits. To reduce these costs, the
Postal Service began a return to work           By not performing periodic reviews of
initiative focusing on employees                employee case files, employees capable
receiving workers compensation. As of           of working would continue receiving
June 2013, the Postal Service had               workers compensation. Also, when
returned 2,098 employees to work; and           supervisors do not document employees
the Postal Service and the Department           acceptance of modified assignments,
of Labor processed other actions for            the employees could deny agreeing to
1,790 employees that reduced workers            the terms of the limited duty assignment,
compensation costs.                             increasing the potential for future claims.

In response to a request from the Office        WHAT THE OIG RECOMMENDED:
of General Counsel, our objective was           We are not making any
to determine whether Postal Service             recommendations related to the issues
officials followed applicable policies and      identified in this report as management
procedures when returning Limited Duty          agreed in a prior audit to conduct a
and Rehabilitation Employees to work.           formal staffing analysis to determine the
                                                number and type of employees needed
WHAT THE OIG FOUND:                             to handle workers’ compensation claims
Overall, Postal Service officials at the        and adjust staffing accordingly.
four districts we visited (Lakeland,
Atlanta, Dallas, and Chicago) followed          Link to review the entire report
the established process to return injured
employees to work. When management
returned employees to work, they
adhered to policies outlined in the
Employee and Labor Relations Manual,
September 12, 2013

MEMORANDUM FOR:             JEFFREY C. WILLIAMSON
                            CHIEF HUMAN RESOURCES OFFICER AND
                            EXECUTIVE VICE PRESIDENT

                            ROSEMARIE FERNANDEZ
                            VICE PRESIDENT, EMPLOYEE RESOURCE
                            MANAGEMENT




FROM:                       Michael A. Magalski
                            Deputy Assistant Inspector General
                             for Support Operations

SUBJECT:                    Audit Report – Limited Duty and Rehabilitation Employees
                            Returned to Work (Report Number HR-AR-13-006)

This report presents the results of our audit of the U.S. Postal Service's Limited Duty
and Rehabilitation Employees Returned to Work (Project Number 13YG016HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, deputy
director, Human Resources and Support, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Limited Duty and Rehabilitation                                                                                    HR-AR-13-006
 Employees Returned to Work



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Periodic Reviews ............................................................................................................. 2

Modified Assignment Form .............................................................................................. 3

Appendix A: Additional Information ................................................................................. 5

      Background............................................................................................................... 5

      Objective, Scope, and Methodology ......................................................................... 6

      Prior Audit Coverage................................................................................................. 8
Limited Duty and Rehabilitation                                                                           HR-AR-13-006
 Employees Returned to Work



Introduction

This report presents the results of our audit of the U.S. Postal Service's Limited Duty
and Rehabilitation Employees Returned to Work (Project Number 13YG016HR000).
The report responds to a request from the U.S. Postal Service’s Office of General
Counsel due to a recent class action case that alleges violations of the Rehabilitation
Act.1 Our objective was to determine whether Postal Service officials followed
applicable policies and procedures when returning limited duty and rehabilitation
employees2 to work. See Appendix A for additional information about this audit.

The Postal Service implemented the Delivering Results, Innovation, Value, and
Efficiency (DRIVE) initiatives to improve its business performance. One of the DRIVE
initiatives is to improve employee availability. This initiative includes a measurable
metric to reduce the number of employees on the periodic roll.3 As of December 2012,
the Postal Service had 16,999 employees on the periodic roll and was facing a long-
term workers’ compensation liability of $16.5 billion. To reduce these costs, the
Postal Service initiated an effort to return limited duty and rehabilitation employees on
the periodic roll to work in fiscal year (FY) 2013. As of June 2013, the Postal Service
removed 3,888 employees from the periodic roll either because management identified
a modified assignment within the employee’s medical restrictions, or the employee
returned to full duty. Also included in this number are other actions processed by the
Postal Service and the U.S. Department of Labor (DOL) that reduced or discontinued
workers’ compensation payments, such as divorce, change in dependent status,
disability separation, retirement, or death.

The Postal Service’s policies and procedures for returning employees to work are
outlined in the Employee Labor Relations Manual, which is consistent with federal laws
and regulations.




1
  The Rehabilitation Act prohibits discrimination against qualified employees and job applicants with disabilities in the
federal government, including the Postal Service.
2
  Limited duty employees are temporarily unable to perform their regular assignment due to injuries sustained while
on duty. Rehabilitation employees have permanent partial disabilities resulting from injuries sustained while on duty.
3
  Employees who receive workers’ compensation benefits and have disabilities that are expected to be permanent or
prolonged (more than 60-90 days).
                                                            1
Limited Duty and Rehabilitation                                                                   HR-AR-13-006
 Employees Returned to Work



Conclusion

Overall, Postal Service officials at the four districts we visited (Lakeland, Atlanta, Dallas,
and Chicago) followed the established process to return injured employees to work.
When management returned employees to work, they adhered to policies outlined in the
Employee and Labor Relations Manual, which is consistent with federal laws and
regulations. However, we noted that officials did not perform the required periodic
reviews of 3 percent of case files we reviewed, and 6 percent of files reviewed did not
contain documentation of employees acceptance of modified assignments. District
Health and Resource Management (HRM) officials stated that it was an oversight due to
increased workload and decreased staffing, including retirements and promotions, that
made it difficult to manage cases for appropriate documentation.

By not performing periodic reviews of employee case files, employees capable of
working would continue receiving workers compensation. Also, when supervisors do not
document employees acceptance of modified assignments, the employee could deny
agreeing to the terms of the limited duty assignment, increasing the potential for future
claims.

Periodic Reviews

District HRM specialists performed periodic reviews for 134 of the 138 case files we
reviewed (97 percent); however, we identified two case files in the Lakeland District and
one file each in the Chicago and Atlanta districts that did not contain evidence of
required periodic reviews.

For example, a case file for a rural carrier in the Atlanta District, injured in February
2006, had no evidence of a modified assignment form or periodic review from May 2009
until December 2012. We found the employee's most recent medical report, dated May
2009, stated that he could return to work with medical restrictions. However, it was not
until January 2013, that a district HRM specialist performed a periodic review, and the
employee accepted a modified assignment in March 2013. Based on the employee's
medical report, he was able to return to work as early as May 2009.

Postal Service guidelines require supervisors and managers to conduct periodic reviews
of all employees working in temporary or limited duty assignments and all employees
who have received notice that there is no adequate work available within the
employee's medical restrictions.4

District HRM officials stated they did not perform all periodic reviews due to an
oversight. They further stated that increased workload and decreased staffing from
retirements and promotions contributed to the oversight. As a result, employees capable
of working remain on the periodic roll, and the Postal Service incurs unnecessary
workers' compensation costs.
4
    Guidelines for Assignment of Limited Duty and Rehabilitation Employees, dated July 1, 2011.

                                                           2
Limited Duty and Rehabilitation                                                                    HR-AR-13-006
 Employees Returned to Work



Although we identified one case file without evidence of a periodic review in the Chicago
District, officials explained that they have a process called the “Blue Room,” a
monitoring control worthy of consideration as a best practice throughout the
Postal Service. This control, used to monitor absenteeism, also assists in returning
injured employees to work. The district, Human Resources, HRM, and Customer
Service Operations managers monitor all employees who are not actively working, and
they also include limited duty and rehabilitation employees. They meet once a month to
review the status of employees not actively working, which helps them manage their
required periodic reviews. This practice could help other districts whose HRM
specialists are not able to keep up with periodic file reviews due to workload and staffing
issues.

Modified Assignment Form

We determined that 59 of the 63 case files (94 percent) required and contained a
completed Postal Service (PS) Form 2499, Offer of Modified Assignment.5 However,
four files at three6 districts we visited had no evidence that employees accepted the
offer of modified assignment before returning to work. Two case files contained PS
Forms 2499 that did not document acceptance of modified assignments; while the
remaining two case files did not contain completed PS Forms 2499.

PS Form 2499 should list the duties and physical requirements of the modified
assignment offered, with a copy submitted to the HRM office. If the employee has
concerns (for example: task, work location, or medical limitations) not addressed on the
form, the supervisor or manager should discuss those concerns with the employee and
if possible, suggest alternatives.7 Postal Service policy states that supervisors or
managers are required to submit job offers with the employee's written acceptance or
refusal to the DOL’s Office of Workers' Compensation Program.8

District officials cited various reasons for the missing or incomplete forms, including
resource constraints and an instance in which they requested the completed form but
never received it from the employee. As a result, employees could deny agreeing to the
terms of the limited duty assignment, increasing the potential for future claims.
In a previous audit,9 the U.S. Postal Service Office of Inspector General (OIG) found
that the HRM staff has been reduced without sufficient justification, such as a formal
staffing analysis. The OIG recommended, and management agreed to, conducting a
formal staffing analysis to determine the number and type of employees needed to
handle workers’ compensation claims, including district HRM specialists.




5
  Sixty-three of the 138 case files we reviewed required a PS Form 2499.
6
  Lakeland, Chicago, and Atlanta districts.
7
  PS Form 2499, dated October 2007, Section III, Agreement and Signatures.
8
  Handbook EL 505, Injury Compensation, Section 7.5.
9
  Postal Service Injury Compensation Program, (Report Number HR-AR-13-004, dated July 25, 2013).

                                                      3
Limited Duty and Rehabilitation                                           HR-AR-13-006
 Employees Returned to Work



We are not making any recommendations related to the issues identified in this report
as management agreed in a prior audit to conduct a formal staffing analysis to
determine the number and type of employees needed to handle workers’ compensation
claims and adjust staffing accordingly.




                                          4
Limited Duty and Rehabilitation                                                                      HR-AR-13-006
 Employees Returned to Work



                                 Appendix A: Additional Information

Background

Postal Service employees injured on the job are covered by the Federal Employees
Compensation Act, which is administered by DOL. As of December 2012, the Postal
Service had 16,999 employees on the periodic roll and was facing a long-term workers’
compensation liability of $16.5 billion.

The Postal Service has a legal responsibility to employees with job-related disabilities
including the requirement to assign individuals to available work assignments within
their work restrictions. Providing gainful employment within medically defined work
restrictions has proven to be in the best interest of employees and the Postal Service. In
many cases, returning to work has helped employees recover. Management provide a
rehabilitation assignment when the effects of an injury are considered permanent and
employees have reached maximum medical improvement.10 Limited duty assignments
are offered to employees whose medical conditions are considered temporary.

To reduce the number of employees on the periodic roll,11 the Postal Service
implemented an initiative in FY 2013, to return periodic roll employees to limited duty
and rehabilitation assignments commensurate with their work restrictions. Return to
work actions have included providing modified assignments to employees within
documented medical restrictions or returning employees to full duty. Other actions
processed by the Postal Service and DOL that reduce or discontinue worker’s
compensation payments are: divorce, changes in dependent status, disability
separation, retirement, or death. Based on these actions, as of June 2013, the Postal
Service has reduced periodic roll payments to 3,888 employees.




10
   When an injured employee recovers, his or her recovery reaches a state in which the condition cannot be improved
any further, or he or she reaches a treatment plateau in the healing process.
11
   Postal Service Human Resources Office, Headquarters, provided a list of 3,888 employees on the periodic roll with
a return to work action as of June 2013.

                                                         5
Limited Duty and Rehabilitation                                                                        HR-AR-13-006
 Employees Returned to Work



Objective, Scope, and Methodology

Our objective was to determine whether Postal Service officials followed applicable
policies and procedures when returning limited duty and rehabilitation employees12 to
work. Our scope included case file reviews of 138 of 3,888 limited duty and
rehabilitation employees with a return to work action as of June 2013. To accomplish
our objective, we:

    Identified and reviewed the laws and regulations as well as Postal Service policies
     and procedures for returning limited duty/rehabilitation employees to work.

    Reviewed the FY 2013 national database13 of employees on the periodic roll eligible
     for the Postal Service's Return to Work Initiative, based on the employee's medical
     restrictions.

    Judgmentally selected the Lakeland, Dallas, Atlanta, and Chicago districts for
     review. We selected the Lakeland, Atlanta, and Dallas districts because of their high
     number of limited duty and rehabilitation employees capable of returning to work.
     We selected the Chicago District because of its low number of limited
     duty/rehabilitation employees and high percentage of employees returned to work.

    Interviewed Postal Service Headquarters HRM officials and personnel at selected
     districts to gain an understanding of the processes used to return limited duty and
     rehabilitation employees back to work.

    Created a process flow of key actions involved in assigning limited duty and
     rehabilitation employees that was approved by a senior Postal Service official.

    Reviewed 138 limited duty and rehabilitation employee case files (Lakeland – 35,
     Dallas – 36, Atlanta – 36, and Chicago – 31) to determine whether officials followed
     the established process to return limited duty and rehabilitation employees to work.
     The 138 files included 63 employees with modified assignments (PS Form 2499), 30
     employees returned to full duty, 20 employees who retired, eight employees who
     were deceased, and 17 employees with other actions taken. See Table 1 for a
     breakdown of case files reviewed by case type.




12
   Limited duty employees are temporarily unable to perform their regular assignment resulting from injuries on duty.
Rehabilitation employees have permanent partial disabilities resulting from injuries on duty.
13
   Postal Service Human Resources Office, Headquarters, provided a database listing of 16,999 employees on the
periodic roll, dated January 31, 2013, and eligible for return to work based on the employee's medical restrictions.

                                                          6
Limited Duty and Rehabilitation                                                                           HR-AR-13-006
 Employees Returned to Work




                        Table 1. Action Types for Case Files Reviewed




                            17 or 12%                                     Return to Work-Modified
                                                                          Assignment
                     8 or 6%                                              Return to Work -Full Duty

                                                    63 or 46%
                                                                          Retired
                20 or 14%

                                                                          Deaths


                            30 or 22%                                     Other Actions




        Source: OIG fieldwork case file review at the Lakeland, Atlanta, Dallas, and Chicago districts.

We conducted this performance audit from January through September 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. The evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and
conclusions with management on September 4, 2013, and included their comments
where appropriate.

We did not rely on computer-generated data to support our conclusions and therefore
did not assess the reliability of any computer-generated data.




                                                          7
     Limited Duty and Rehabilitation                                                         HR-AR-13-006
      Employees Returned to Work


     Prior Audit Coverage

                                                               Final
                                                              Report       Monetary Impact
            Report Title                Report Number           Date          (in millions)
Postal Service Injury                    HR-AR-13-004        7/25/2013           $171.6
Compensation Program
Report Results:
Management needs to improve their administration of workers' compensation claims.
Management did not consistently determine staffing levels and has reduced the number of
staff significantly since 2009. Additionally, some HRM personnel were used for collateral
duties and nurses were not fully used in case management. We determined the Postal
Service can reduce the number of employees receiving workers' compensation and save
more than $85.5 million annually. We recommended management conduct a formal staffing
analysis to include using contract nurses for case management, establish district
performance measures based on cost reductions, and implement a nationwide work search
system, along with district rehabilitation program committees. We also recommended
management establish a standardized quick reference guide, provide automated reminders
of key tasks, explore the return-to-work benefits of partnerships with nonprofit
organizations, and evaluate the use of predictive analytics. Management agreed with most
of the recommendations but disagreed with the recommendations regarding automated
reminders due to resource constraints and partnering with nonprofit organizations because
this action would not reduce the compensation payable to the employee.

Rehabilitation Assignments for           HR-AR-12-004          8/27/2012            None
Employees Injured on Duty
Report Results:
The Postal Service has contract work that it can potentially make available to employees
on the periodic roll as rehabilitation assignments. Specifically, we identified a contract that
provides automotive services including transporting vehicles in need of repair and
maintenance to 28 vehicle maintenance facilities (VMFs) or repair garages. We found that
employees who have been injured on the job and are able to return to work could perform
some of this work at 10 of the 28 Postal Service VMFs. The report also stated there is also
the potential for other VMFs to provide similar rehabilitation assignments. The report
recommended that management establish and implement a plan, including staffing and
training, to allocate services performed at the 28 VMFs to employees injured on duty. We
also recommended management assess the feasibility of providing similar rehabilitation
assignments at the remaining 281 VMFs. Management agreed with two of the three
recommendations. Management disagreed with the recommendation pertaining to
establishing a training plan for employees on the periodic roll who receive and accept an
offer to perform vehicle shuttle service work.




                                                       8
